               DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General




                                                                               Memorandum
Date:      March 19, 2003

From:      John I. Molnar
           Regional Inspector General for
              Evaluation and Inspections – New York

Subject:   Performance Data for the Senior Medicare Patrol Projects: March 2003 Performance
              Report (OEI-02-03-00120)

To:	       Brian Lutz, Director
           Office of Community-Based Services
           Administration on Aging


           At the request of the Administration on Aging (AoA), the Office of Inspector General collects
           performance data for the Senior Medicare Patrol Projects. The attachments present cumulative
           performance data from the beginning of each project. Attachment A lists complete data for the
           12 projects that have operated since the inception in 1997. Attachment B presents the
           cumulative 3½ years of work for 29 projects. Attachment C reflects performance data for 7
           projects with 30 months of experience. Attachment D contains the first 18 months of data for 4
           projects. Attachment E introduces 6 months of data for the 4 new projects. Please note that
           the project data are self-reported and that we have not independently verified their accuracy.

           As of December 31, 2002, there are 54 Senior Medicare Patrol Projects operating.
           Additionally, two projects -- Arkansas Seniors Organized for Progress and Texas-Baylor
           University -- are no longer in operation as of June 30, 2002. Since the inception of the first
           projects in 1997, a total of 34,700 volunteers have been trained to detect Medicare fraud,
           waste, and abuse. In-turn, these volunteers have conducted 200,495 training sessions in which
           almost 1.1 million Medicare beneficiaries were educated. Once educated, these beneficiaries
           reported 23,142 complaints, of which 5,332 were referred for follow-up. Investigative
           agencies took action on 2,312 of these referrals. In total, closed investigations have resulted in
           the recoupment of $3,679,644 in Medicare funds and, reportedly, $77,446,583 to other
           payors.

           Over the past 6 months, the 54 projects that are currently operating have trained a total of
           3,531 new volunteers. Approximately 231,000 beneficiaries were educated at 46,243 training
           sessions conducted by volunteers. A total of 3,800 complaints have been registered since June
2002. Documentation received in the past 6 months provides evidence of $670,868 in 

Medicare funds recouped as a direct result of the projects. 

Page 2 – Brian Lutz


Another $825,028 has been recouped to other payors.


Of the 54 current grantees, 11 reported savings in the past 6 months. Six of these grantees 

submitted Centers for Medicare & Medicaid Services contractor-based complaint tracking 

system reports. Of the money reported recouped in the past 6 months, $7,807 were 

documented by the tracking reports. 


We continue to note that a significant number of the beneficiaries, who have learned to detect 

fraud, waste, and abuse from the Senior Medicare Patrol Projects, are calling the OIG fraud 

hotline or other contacts. The projects are not able to track this activity, and thereby, are not 

receiving full credit for saved funds attributable to their work. In addition, substantial savings, 

which cannot be tracked, may be derived from a sentinel effect whereby fraud and errors are 

reduced in light of Medicare beneficiaries’ scrutiny of their bills.


At this time, we encourage AoA to develop a strategy to continue monitoring the Senior 

Medicare Patrol Projects. We are fully prepared to work with AoA to develop and implement 

that strategy. If you have any questions, please call me at 212-264-2000.


Attachments

                                                                                                                                                            APPENDIX A


                                 66-Month Outcomes Reported by the Senior Medicare Patrol Projects


            Activity                TOTAL           CA         HI          IA          IL         MD          MN         MO          NH          NY           PA         RI         WI

            OUTPUTS

# training sessions                       1,583           99         59         273          29        250          90         41          17         557           76         12         80

# trainers trained                      21,486         2,190        284      2,455          272    2,677           569        205         697     10,698           267        252        920

# media events                          25,477           214    4,563        2,559       3,706         323         454         68      1,098          409           67    7,904       4,112

# community education events              5,812           89         68         824         347    1,438           850        221         220      1,108           329         81        237

           OUTCOMES

total # trainers who have ever
conducted activities                      6,310          393        145         DK          249        108         278        205         541      3,971           161         26        233

# group sessions                        10,144         1,725        331      1,595       1,548     1,109           824        228         438         967          673        281        425

# beneficiaries at group sessions      443,831       74,838    11,169       52,326      62,538    26,148       15,480     11,788      52,565      32,429      84,868      6,753      12,929

# one -on-one sessions                  56,369           697          0         237         539   11,066           579    13,212      20,570       8,846           375          1        247

total # beneficiaries educated         500,200       75,535    11,169       52,563      63,077    37,214       16,059     25,000      73,135      41,275      85,243      6,754      13,176

estimated # people reached by
community education events            9,231,249      48,311    26,064      327,198      27,316    85,008       27,435    247,419      63,779     263,367    8,010,456    68,923      35,973

# complaints received                   11,518           793        218      1,153          349    1,553           352         44      4,784          960      1,031           53        228

# complaints referred for
follow -up                                1,860          262         46         412         105        243         157         42         111         235          101         39        107

# complaints resulting in some
action                                      650           56        DK           43          10        104          68         13          40         220           41          6         49

Medicare $ recouped                  $2,778,613   $1,318,913        DK $1,147,524            $0        DK    $109,997      $210        $107      $45,797    $144,339           $0   $11,726

Other $ recouped                    $76,623,778     $74,914         DK $1,324,867     $146,485         DK     $31,681 $1,708,530    $119,407 $73,201,200      $1,935           $0   $14,759

Total $ recouped                    $79,402,392   $1,393,827         $0 $2,472,391    $146,485          $0   $141,678 $1,708,740    $119,514 $73,246,997    $146,274           $0   $26,485
                                                                                                                                                                           APPENDIX B
            42-Month Outcomes Reported by the Senior Medicare Patrol Projects


            Activity               TOTAL          AK           AL        AR1        AZ        CO         CT         DC2            DC3           DE          FL        GA4          GA5         ID         IN

            OUTPUTS

# training sessions                      2,493         58           88       12          40         35        22          13              5            39         31         61       276            193         14

# trainers trained                      10,204      122          331       129         123         212      225           63             47           306       224        170       1,938           638        240

# media events                          16,570         47        118         35        519          46      856           34             20        4,714        972          53      1,083       2,128           49

# community education events             7,931         65        292         91        377                  714           46                          127       167          26      1,552           208        124
                                                                                                   558                                   20

           OUTCOMES

total # trainers who have ever
conducted activities
                                         4,658         83        331         43        123          34        84          63             25            84       137        154        755            200         24

# group sessions                         9,850         45        399         92        352         404      120         191              75           348       188        414       1,834           772         56

# beneficiaries at group
sessions
                                      434,411      1,410       19,605    8,787      53,578    11,120       3,862      6,104         2,681          8,755     13,041     11,462      58,737      41,064      1,686

# one -on-one sessions                113,465      2,320         437         51        259         189        48          11          623              75       461        789       1,063           861         50

total # beneficiaries educated        547,876      3,730       20,042    8,838      53,837    11,309       3,910      6,115         3,304          8,830     13,502     12,251      59,800      41,925      1,736

estimated # people reached by
community education events
                                     2,548,176    31,376       50,946    9,673      64,164    19,498      38,111    186,800          7500        134,133    176,961      4,316 1,042,918        11,750     22,707

# complaints received                   10,759      445          225         50      1,981         153      127         365              48           132       564          43           33     3,140            8
                                                                                                                                          0
# complaints referred for
follow -up
                                         3,231         22        104         14        149          17        34          54                           25         21            7         18     1,289            8
                                                                                                                                          0
# complaints resulting in some
action
                                         1,551          7           13      DK           22        DK          3          10                            1          9            0          4         669          2

Medicare $ recouped
                                     $231,720          $0           $0      DK        $429     $453      $29,446     $1,329              $0       $5,388     $4,601          $0           $0   $10,970     $4,441

Other $ recouped
                                     $807,640    $13,495            $0      DK      $3,271    $3,450          $0          $0             $0            $0   $66,098          $0           $0 $452,699            $0

Total $ recouped                   $1,039,360    $13,495            $0       $0     $3,700    $3,903     $29,446     $1,329              $0       $5,388    $70,699          $0           $0 $463,669      $4,441
Please note these distinctions:
1. Project ended June 30, 2002    2. The AARP Foundation, DC        3. Friendship House, DC   4. Atlanta Regional Commission, GA         5. Department of Human Resources, GA
                                                                                                                                                                           APPENDIX B
            42-Month Outcomes Reported by the Senior Medicare Patrol Projects


            Activity                     MA              ME        MI        MT          NM          NV           OH           OK         OR         PR        TX6        TX7        UT        VA        WA

            OUTPUTS

# training sessions                            100            79        43        20          22           63              6         11         75        30         18         87        53        37      962

# trainers trained                             227         254        643         80        453           147            113        108        690     325       244         679       197        620       656

# media events                                 197         191          36     2,616        213            84            101         47        263     129       213         174          43      372      1,217

# community education events                   213         509          92       150        274            95            159        246         64     533       135         303       134        390       267

           OUTCOMES

total # trainers who have ever
conducted activities                           109         158        198         54          70           90             45         25        219        43     244         286       142        179       656

# group sessions                               283         306        179        168          89           89            319         37        157     330           72      451       139        883      1,058

# beneficiaries at group
sessions                                   10,150         7,203     12,218     3,445       9,713       7,370        9,734       6,569     15,472      6,223     1,375      14,713     4,809     32,577    50,948

# one -on-one sessions                       3,368         743          67       138       4,411           47       1,582            18    1,216      3,941      255        1,083     1,970       362     87,027

total # beneficiaries educated             13,518         7,946     12,285     3,583     14,124        7,417       11,316       6,587     16,688     10,164     1,630      15,796     6,779     32,939   137,975

estimated # people reached by
community education events                 17,410        31,130     11,932     3,468    207,760       19,473       33,346      40,088     14,038     18,297     8,249      48,106    28,471    146,598   118,957

# complaints received                          197            78      216        159        175           286             39         79         62    1,464          51      180          83      281         95

# complaints referred for
follow -up                                      53            47        66        15          60           34             21         28         18     758           16         67        39      211         36

# complaints resulting in some
action                                          DK            16      N/A           0       139             2              1          4          5     551           13         29         2        25        24

Medicare $ recouped                             DK            DK   $17,320        $0     $5,102        $787             $395         $0        DK    $6,607          $0    $2,516         $0   $20,664 $121,272

Other $ recouped                          $51,949             DK        $0    $1,079 $163,313         $3,723              $0         $0        DK         $0         $0   $30,816    $4,485         DK   $13,262

Total $ recouped                           $51,949            $0   $17,320    $1,079 $168,415         $4,510            $395         $0         $0   $6,607          $0   $33,332    $4,485    $20,664 $134,534
Please note these distinctions:
 6. Baylor University, TX: project ended June 30, 2002                  7. The National Hispanic Council on Aging, TX
                                                                                                                           APPENDIX C
30-Month Outcomes Reported by the Senior Medicare Patrol Projects


                  Activity               TOTAL       LA         MS           NC         NE          SC         SD         WY

                  OUTPUTS

     # training sessions                      353          14          43         248          31          9          3          5

     # trainers trained                      2,597        142         361     1,277           421        115        133        148

     # media events                           964          42          57         115         679         10         32         29

     # community education events             783                     166         319          94         51         23         78
                                                           52
                OUTCOMES

     total # trainers who have ever
     conducted activities
                                              698          58         183         126         263         29         15         24

     # group sessions                         823          88         224         169         160         44         50         88

     # beneficiaries at group sessions      25,538    1,325          6,367    5,225        6,490     1,568      1,260       3,303

     # one -on-one sessions                  8,199        190        6,682        649         502         83          8         85

     total # beneficiaries educated         33,737    1,515      13,049       5,874        6,992     1,651      1,268       3,388


     estimated # people reached by
     community education events
                                           255,326    3,049      21,106      31,107      178,440    10,107      2,392       9,125

     # complaints received                    790          45         418         161          39         76         12         39

     # complaints referred for
     follow -up
                                              205          10          24          66          19         56          3         27

     # complaints resulting in some
     action
                                              101           5          16          29           5         21          2         23

     Medicare $ recouped                  $664,383         $0        $714     $140      $643,465    $7,274           $0   $12,790

     Other $ recouped                      $14,979         $0    $1,534       $108           $120         $0         $0   $13,217

     Total $ recouped                     $679,362         $0    $2,248       $248      $643,585    $7,274           $0   $26,007
                                                                                                                  APPENDIX D
18-Month Outcomes Reported by the Senior Medicare Patrol Projects


                         Activity                TOTAL          KY           NJ           TN           WV

                         OUTPUTS

             # training sessions                          143          83            5           55           0

             # trainers trained                           397         137           39          221           0

             # media events                               542         223            8          285          26

             # community education events                 221         129            4           70          18

                        OUTCOMES

             total # trainers who have ever
             conducted activities                         168         128           13           27           0

             # group sessions                             523         315           49          159           0

             # beneficiaries at group sessions       15,383          8,228        1372         5,783          0

             # one -on-one sessions                   1,121           716            8          397           0

             total # beneficiaries educ ated         16,504          8,944        1,380        6,180          0

             estimated # people reached by
             community education events              64,110      53,203           3,250        7,004        653

             # complaints received                         69           4           26           39           0

             # complaints referred for
             follow -up                                    30           2            6           22           0

             # complaints resulting in some
             action                                         9           0            3            6           0

             Medicare $ recouped                         $261          $0         $261           $0          $0

             Other $ recouped                            $186          $0           $0         $186          $0

             Total $ recouped                            $447          $0         $261         $186          $0
                                                                                                             APPENDIX E


    6-Month Outcomes Reported by the Senior Medicare Patrol Projects


                           Activity             TOTAL        AR1        OH2         OH3        TX4

                           OUTPUTS

            # training sessions                          2          0           0          0            2

            # trainers trained                          16          0           0          0           16

            # media events                              81          0          55         20            6

            # community education events                85          0          25         16           44

                         OUTCOMES

            total # trainers who have ever
            conducted activities                         1          0           0          0            1

            # group sessions                             0          0           0          0            0

            # beneficiaries at group sessions            0          0           0          0            0

            # one -on-one sessions                       1          0           0          0            1

            total # beneficiaries educated               1          0           0          0            1

            estimated # people reached by
            community education events               3,264          0         594         29         2,641

            # complaints received                        6          0           0          0            6

            # complaints referred for
            follow -up                                   6          0           0          0            6

            # complaints resulting in some
            action                                       1          0           0          0            1

            Medicare $ recouped                     $4,667         $0          $0         $0     $4,667

            Other $ recouped                            $0         $0          $0         $0           $0

            Total $ recouped                        $4,667         $0          $0         $0     $4,667
Please note these distinctions:
1. Arkansas Dept. of Human Services 2. Pro-Seniors, Inc., OH 3. Central Ohio Area Agency on Aging 4. Better Business Bureau Education Foundation, TX
